<html>
<title> - THE PERSIAN GULF VETERANS ACT OF 1998</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
                 THE PERSIAN GULF VETERANS ACT OF 1998

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                  VETERANS AFFAIRS, AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 22, 1999

                               __________

                           Serial No. 106-129

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
65-548 CC                   WASHINGTON : 2000




                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
JOHN T. DOOLITTLE, California            (Independent)
HELEN CHENOWETH, Idaho


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

Subcommittee on National Security, Veterans Affairs, and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
ILEANA ROS-LEHTINEN, Florida         TOM LANTOS, California
JOHN M. McHUGH, New York             ROBERT E. WISE, Jr., West Virginia
JOHN L. MICA, Florida                JOHN F. TIERNEY, Massachusetts
DAVID M. McINTOSH, Indiana           THOMAS H. ALLEN, Maine
MARSHALL ``MARK'' SANFORD, South     EDOLPHUS TOWNS, New York
    Carolina                         BERNARD SANDERS, Vermont 
LEE TERRY, Nebraska                      (Independent)
JUDY BIGGERT, Illinois               JANICE D. SCHAKOWSKY, Illinois
HELEN CHENOWETH, Idaho

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
              Samantha Sherman, Professional Staff Member
                        Jonathan Wharton, Clerk
           Michael Yeager, Minority Professional Staff Member



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 21, 1999...................................     1
Statement of:
    Byrd, Robert C., a U.S. Senator from the State of West 
      Virginia...................................................     7
    Mather, Dr. Susan, Chief Public Health and Environmental 
      Hazards Officer, Department of Veterans Affairs; Dr. 
      Frances Murphy, Chief Consultant, Occupational and 
      Environmental Health; John Thompson, Deputy General 
      Counsel; Robert Epley, Director, Compensation and Benefits; 
      Susan Stoiber, Executive Officer, Institute of Medicine; 
      Dr. Carolyn Fulco; and Dr. David Tollerud..................    15
Letters, statements, et cetera, submitted for the record by:
    Byrd, Robert C., a U.S. Senator from the State of West 
      Virginia, prepared statement of............................    10
    Mather, Dr. Susan, Chief Public Health and Environmental 
      Hazards Officer, Department of Veterans Affairs, prepared 
      statement of...............................................    20
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3
    Stoiber, Susan, Executive Officer, Institute of Medicine, 
      prepared statement of......................................    29
    Tollerud, Dr. David, prepared statement of...................    40


                 THE PERSIAN GULF VETERANS ACT OF 1998

                              ----------                              


                        THURSDAY, APRIL 22, 1999

                  House of Representatives,
       Subcommittee on National Security, Veterans 
              Affairs, and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2247, Rayburn House Office Building, Christopher Shays 
(chairman of the subcommittee) presiding.
    Present: Representatives Wise, Sanders, and Schakowsky.
    Staff present: Lawrence J. Halloran, staff director and 
counsel; Newman, Wharton, Raphael, and Gosa.
    Mr. Shays. I would like to call this hearing to order and 
to welcome Senator Byrd. Senator Byrd, I am just going to read 
a very short statement. Then we are going to get right to you.
    Last month, witnesses from national veterans service 
organizations urged this subcommittee to keep close watch on 
the Department of Veterans Affairs [VA] as the Secretary and 
his staff implement new statutory mandates to meet the needs of 
sick Gulf war veterans. Today we heed their advice.
    Legislation enacted in 1998 contains clear directives and 
fixed deadlines to create a presumption in favor of those 
seeking to connect toxic war exposures to chronic health 
effects. But veterans' advocates warned that bureaucratic 
resistance and scientific uncertainty threatened more delays in 
their 9-year struggle for recognition their illnesses are real, 
their wounds war-related. They were right.
    Under the Persian Gulf War Veterans Act of 1998, April 21, 
1999, yesterday, was the deadline for submission of an interim 
report from the National Academy of Science [NAS] to VA on the 
toxins to be studied for links to illnesses. But because VA 
waited 3 months for the Department of Justice to interpret 
overlapping but by no means contradictory provisions of two 
statutes, that deadline has already been missed.
    The good news: VA contracted with NAS in late 1997 for a 
study of exposure-related illnesses that may meet most, but not 
all, the requirements of the laws. This hearing is to determine 
more precisely, and more publicly, how the VA and NAS plan to 
go forward to meet the spirit, if not always the letter, of the 
statutes.
    The process we oversee today is the culmination of a 3-year 
effort by this subcommittee. We held 13 hearings and adopted a 
report containing 18 specific recommendations, the first two of 
which were that: Congress should enact a Gulf war toxic 
exposure act establishing the presumption, as a matter of law, 
that veterans were exposed to hazardous materials known to have 
been present in the Gulf war theater; and the VA should 
contract with an independent scientific body composed of non-
government scientific experts for the purposes of identifying 
those diseases and illnesses associated in peer-reviewed 
literature with singular, sustained or combined exposures to 
the hazardous materials to which Gulf war veterans are presumed 
to have been exposed.
    We are very honored to be joined this morning by the author 
of the Persian Gulf War Veterans Act, Senator Robert Byrd of 
West Virginia. While this subcommittee's hearings and 
recommendations may have helped keep the cause alive, it was 
his vision and determination, and that of his staff that, in 
the end, enacted them and put the law on the side of the sick 
Gulf war veteran.
    Mr. Byrd, we welcome you. We welcome all our witnesses. I 
ask if Mr. Wise has any comment that he would like to make and 
obviously welcome him to this hearing.
    [The prepared statement of Hon. Christopher Shays follows:]
    [GRAPHIC] [TIFF OMITTED] T5548.001
    
    [GRAPHIC] [TIFF OMITTED] T5548.002
    
    [GRAPHIC] [TIFF OMITTED] T5548.003
    
    [GRAPHIC] [TIFF OMITTED] T5548.004
    
    Mr. Wise. Thank you Mr. Chairman. Mr. Chairman, thank you 
for conducting this hearing. You have been one of the leaders 
as well in this fight for the Persian Gulf war veterans. I just 
wanted to say, Mr. Chairman that it is a privilege to be able 
to participate in the same hearing with Senator Byrd.
    Senator Byrd knows well that our State of West Virginia has 
historically the highest number of veterans per capita. It has 
for many, many years. West Virginians, as well as those across 
the country always answer the call. When word first began to 
develop, and symptoms and problems began to develop, Senator 
Byrd cut through a lot of the talk about what could be done and 
got something done.
    We are delighted now to have the Senator here, and also to 
find out what it is that needs to be done to make the promise 
of the Congress into reality. Thank you very much.
    Mr. Shays. Senator Byrd, I am just going to get two 
bookkeeping things out of the way. I would first ask unanimous 
consent that all members of this subcommittee be permitted to 
place an opening statement into the record and that the record 
will remain open for 3 days for that purpose. Without 
objection; so ordered.
    I ask further unanimous consent that all witnesses be 
permitted to include their written statement in the record. 
Without objection; so ordered. Senator, I know that Senators 
are legendary for having quite a lot to say. With no reluctance 
at all, we do not have a clock for you. You are welcome to 
speak as long as you would like.

 STATEMENT OF ROBERT C. BYRD, A U.S. SENATOR FROM THE STATE OF 
                         WEST VIRGINIA

    Senator Byrd. Mr. Chairman, I appreciate that 
consideration. I thank you for inviting my comments on the 
implementation of the Persian Gulf War Veterans Act of 1998. I 
am extremely grateful for the opportunity to appear before this 
committee today. I am especially happy to see my colleague, 
Robert Wise, here as well.
    I think of Bob Wise sometimes as a steam engine in 
britches. He is so blessed with energy and drive. He is a very 
hard worker for his District. I am sure he works well with his 
colleagues here. I consider it a privilege to have the 
opportunity to be introduced by him.
    Chairman Shays, I have especially enjoyed the way that you 
and I have been able to work across a sometimes deep divide 
that can separate our Houses and our parties in order to do 
what is right and long over-due for the veterans of the Persian 
Gulf war. Concern for our Nation's veterans should be non-
partisan in the sense of political parties, but wholly and 
completely partisan in our hearts.
    Today as we watch daily reports of bombing runs over 
Yugoslavia, it is easy to recall the eerie precision of the 
video war that was Operation Desert Storm. Many Americans' 
initial impression of Desert Storm was of a technically 
precise, almost bloodless operation in which bombs dove to 
their targets with such deadly accuracy that Iraq's much feared 
military might seemed to evaporate before our eyes.
    As allied pilots assailed Iraq's chemical and biological 
warfare industry, military planners crowed that Iraqi military 
commanders could not bring themselves to use the weapons that 
we had feared most, the chemical and biological warfare agents 
that we suspected Iraq of possessing.
    Chemical alarms blared incessantly. To protect troops, 
vaccines unproved for military use were employed and other 
preventative medical measures were widely taken. To combat 
disease, pesticides and repellents were sprayed, adding to the 
foul smog created by burning oil wells set alight by retreating 
Iraqi forces.
    Soldiers quite literally operated in a fog of war for weeks 
on end. In retrospect, it is hardly surprising that so many 
veterans of the Gulf war have been in ill health as the result 
of their service. The official response has been slow; slow to 
recognize the prevalence of illness; slow to react; slow to 
organize; slow to respond.
    Until the admission in June 1997 that United States forces 
had in March 1991 blown up large amounts of Iraqi chemical 
warfare agents at more than one site, no serious effort has 
been made to investigate the role that exposure to chemical or 
biological warfare agents may have played in injuring soldiers' 
health.
    The Persian Gulf Veterans Act of 1998 attempts to make up 
for lost time by requiring the National Academy of Sciences 
[NAS] to review exposure to many potential hazardous agents 
during the war and determine what illnesses may be linked to 
those exposures.
    The NAS is also required to recommend further studies where 
needed in order to resolve questions. With the NAS study in 
hand, the Persian Gulf War Veterans Act gives the Secretary of 
Veterans Affairs the ability to administratively make a 
determination that the illness is service connected for the 
purposes of providing health care and benefits to the affected 
veterans.
    The most critical element of the Persian Gulf War Veterans 
Act is that no intervening act of Congress is required to make 
a determination of service connection happen. I know that I am 
preaching to the choir here when I observe that requiring an 
act of Congress to make something happen in a timely manner is 
perhaps more difficult than requiring an act of God to happen.
    I am far more confident, far more confident, that any 
Secretary of Veterans Affairs will exercise undue restraint 
than I am, that he or she will be excessively generous in 
making such a determination of service connection.
    I can only urge this and all future Secretaries of Veterans 
Affairs to act in a just and reasonable manner, ensuring that, 
to paraphrase President Theodore Roosevelt, veterans get a 
square deal. I am getting a bit ahead of myself, however. 
Before those determinations can be made, the reviews have to be 
conducted.
    The first deadline in the act requires the Secretary to 
seek to enter into an agreement with the NAS not later than 2 
months after the date of enactment of this act. That would have 
been December 21st, Chairman Shays, 1998. However, the VA 
delayed, seeking a legal opinion from the Justice Department 
that was received on March 12, 1999.
    It basically told the VA to proceed. The second deadline in 
the act called for an interim report from the NAS specifying 
the agents, the hazards, the medicines, and vaccines to be 
considered. That report should have been delivered on April 
21st, which was yesterday, 6 months after the date of 
enactment.
    The next and first full report should be delivered on April 
21st of next year, with the Secretary's determination of 
service connection made by June 21, 2000. Even if lost time is 
made up, no veteran will receive any benefit from this act 
before November 21, 2000--10 years, 3 months, and 20 days after 
Iraq invaded Kuwait.
    I know that the intent of this hearing is to press the 
Department of Veterans Affairs to move out swiftly to implement 
this act. I applaud you for your diligence in conducting this 
kind of oversight. On the other side of the Capitol, I have 
joined the subcommittee on VA, HUD, and Independent Agencies of 
the Senate Committee on Appropriations in order to better 
oversee the implementation of this and other programs designed 
to help our Nation's veterans.
    Together, then, we can maintain the same vigilant defense 
of our Nation's veterans that they have provided to us for so 
long and so well. So, I thank you again for this opportunity to 
testify, Mr. Chairman. Thank you and all of the members of the 
committee.
    [The prepared statement of Hon. Robert C. Byrd follows:]
    [GRAPHIC] [TIFF OMITTED] T5548.005
    
    [GRAPHIC] [TIFF OMITTED] T5548.006
    
    [GRAPHIC] [TIFF OMITTED] T5548.007
    
    Mr. Shays. Senator Byrd, thank you for your willingness to 
come today and for your very strong statement. Also, thank you 
for not just putting this legislation in and then doing the 
next good deed, but making sure that the intent of the 
legislation is fulfilled. Thank you as well for serving on that 
subcommittee to be a little bit more of an oversight directly 
with the VA, which will be extraordinarily helpful.
    Senator Byrd. Thank you.
    Mr. Shays. We are joined by Bernard Sanders who has been 
frankly as strong as any member on this subcommittee in 
focusing on this issue. I welcome him as well. I do not have 
any questions to ask you, Senator. I do not know if either of 
my colleagues would like to make a comment or ask a question.
    Mr. Sanders. I just want to echo your thoughts, Senator 
Byrd. We knew at the end of this last session when this 
legislation was somewhat up in the air, you played a very 
important and pivotal role in making sure that it got through. 
We appreciate that very much. I agree with you.
    After all of these years, these Gulf war veterans deserve a 
fair shake and you helped make it happen. We are very 
appreciative for your efforts.
    Senator Byrd. Thank you, sir. Let me thank on the record my 
very able assistant, Lisa Tuite, who is here seated just behind 
me. She followed that legislation through its journey, even 
into the conference. I cannot over-estimate or over-state the 
contribution that she made in the enactment of that 
legislation. I thank you, Mr. Sanders.
    Mr. Shays. Thank you. Bob, any closing comment?
    Mr. Wise. Simply just thank you very much, Senator, for 
coming and making us aware, and prompting all of us to make 
sure that this legislation is implemented as enacted.
    Senator Byrd. Thank you. Mr. Chairman, I served in the 
House 47 years ago. You did not have this beautiful building 
then. I first served in the House when Speaker Martin, a 
Republican from Massachusetts I believe.
    Mr. Shays. So, is it a little nostalgic or are you just 
happy not to be here?
    Senator Byrd. I started in the Longworth Building, I 
believe it was and then the Cannon Building. This building was 
I guess, not even in the plans, but it is a beautiful building. 
I congratulate you on having such a beautiful edifice in which 
to serve.
    Mr. Shays. Senator, thank you again for being here. It has 
really been a pleasure. You have honored our committee and 
thank you.
    Senator Byrd. Thank you. Thank you very much.
    Mr. Shays. We are going to have our second panel.
    We welcome Dr. Susan Mather, Chief Public Health and 
Environmental Hazards Officer, Department of Veterans Affairs. 
I only hesitated a bit because I went to Mather Junior High 
School. It is spelled the same way.
    She is accompanied by Dr. Frances Murphy, Mr. John 
Thompson, and Mr. Robert Epley. Our second testimony will be 
from Susan Stoiber, Executive Officer, Institute of Medicine. 
She is accompanied by Dr. Carolyn Fulco. Also, our third 
testimony is from David Tollerud, professor.
    We welcome all testimony, as well as those witnesses who 
are accompanying those who are giving testimony.
    [Pause]
    Mr. Shays. While we are setting up the cards and so on, I 
would just preface your testimony by saying that this is not a 
hearing on whether there are Gulf war illnesses or not. It is 
really a hearing on getting a sense of where the VA and you all 
are in terms of following the legislation that is passed.
    I do not anticipate that this has to be a particularly long 
hearing. We just want to be monitoring what is happening. We 
want to know what your thoughts are about how you implement the 
legislation.
    Now, some of the people who are accompanying, are they just 
sitting behind? What I will do is, I would like everyone whose 
name I called--are we missing some people here? Now, I read 
seven people off and I see five. Are two sitting behind?
    Dr. Mather. Dr. Tollerud is on his way from Philadelphia.
    Mr. Shays. OK. We will have to swear him in separately 
then. If I could invite you all to stand. Let me just say that 
we did not swear in Senator Byrd because he was giving a 
statement and we were not going to ask him questions, but we 
swear in all of our witnesses. Thank you very much.
    Do you solemnly swear or affirm that the testimony you will 
give before this subcommittee will be the truth, the whole 
truth, and nothing but the truth?
    [Chorus of ayes.]
    Mr. Shays. Thank you very much.
    For what it is worth, I would just like to tell you that my 
state of mind is one, that this is a new year. I am just 
interested in getting this legislation moving forward. So, I am 
not as focused as to why it has taken us to this point to get 
here, but just really what do we do from here to move forward. 
You are welcome to talk about anything you want.
    We are going to have the 5-minute clock, but we are going 
to roll it over. Hopefully within 10 we can cover what each of 
you want. I do not want any of you to leave today if you did 
not say something that you felt needed to be said.
    So, I will tell you that you will be able to end if you did 
not have it in your testimony and we did not ask the question; 
have you make sure to make it a part of the record. All set.
    Mr. Sanders. Do you want to do opening statements?
    Mr. Shays. We did opening statements before, but if you 
have an opening statement you would like to give, I would 
welcome it.
    Mr. Sanders. Yes. Let me make a brief opening.
    Mr. Shays. That is fine.
    Mr. Sanders. Thank you for holding this important hearing. 
We have worked hard on this issue. I think we are making some 
progress. Today's hearing is very important to make sure that 
we continue to go forward. As all of you know, last year at the 
end of the last sessions, Chairman Shays and myself, along with 
211 others in a bipartisan way introduced the Persian Gulf War 
Veterans Health Act of 1998.
    The bill would have established in law a presumption of 
service connection for illnesses associated with exposure to 
toxins present in the war. The VA's Secretary, under the 
proposed legislation, would be required to accept the findings 
of an independent scientific body as to the illness' link with 
actual and presumed toxic exposures.
    By establishing a rebuttal presumption of exposure, and the 
presumption of service connection to exposure affects, the bill 
places the burden of proof on the VA where it belongs and not 
on the sick veteran. That is precisely what we wanted to do and 
that is important. Senator Byrd introduced a similar bill in 
the Senate.
    As we all know, this bill was then concluded in the Omnibus 
Appropriations bill and was enacted into law in October 1998. 
The presumption of exposure law is critical for our Gulf war 
veterans as it requires that they be provided medical care for 
Gulf war illness, as well as disability benefits for any 
illness that they may have received as a result of toxic 
exposure in the Gulf.
    The law mentions 31 specific ``biological, chemical, or 
other toxic agents, environmental, or wartime hazards, or 
preventative medicines, or vaccines to which members of the 
Armed Forces who served in the theater of operations during the 
Persian Gulf war may have been exposed.''
    We are here today to determine if the VA and the National 
Academy of Sciences have been doing their work. According to 
the law passed last October, the NAS should be delivering an 
interim report on the review and evaluation of the 31 toxic 
agents, environmental, or wartime hazards, or preventative 
medicines, or vaccines associated with Gulf war service that 
were enumerated in the legislation. Of course, the NAS cannot 
accomplish its duties without the cooperation of the VA.
    So, we are here to see if that cooperation is taking place 
and if not why not and where do we go from here. The interim 
NAS report is the first step in the process of diagnosing the 
treating of Gulf war veterans. As I have said, this has been a 
long time coming.
    Some of us are very mindful of what happened to Vietnam 
veterans with regard to Agent Orange. We are very determined, 
very determined not to see that happen again. Mr. Chairman, I 
look forward to hearing our first report from the VA on the 
implementation of this very important new piece of legislation 
that you were so active in getting passed. Thank you.
    Mr. Shays. Thank you Mr. Sanders. Thank you very much. This 
is a team effort; hopefully a bigger team here. Dr. Mather, we 
welcome you. Thank you.

    STATEMENTS OF DR. SUSAN MATHER, CHIEF PUBLIC HEALTH AND 
ENVIRONMENTAL HAZARDS OFFICER, DEPARTMENT OF VETERANS AFFAIRS; 
    DR. FRANCES MURPHY, CHIEF CONSULTANT, OCCUPATIONAL AND 
 ENVIRONMENTAL HEALTH; JOHN THOMPSON, DEPUTY GENERAL COUNSEL; 
   ROBERT EPLEY, DIRECTOR, COMPENSATION AND BENEFITS; SUSAN 
STOIBER, EXECUTIVE OFFICER, INSTITUTE OF MEDICINE; DR. CAROLYN 
                 FULCO; AND DR. DAVID TOLLERUD

    Dr. Mather. Thank you. Mr. Chairman and members of this 
subcommittee, it is a pleasure to appear before you to describe 
and discuss implementation of the Persian Gulf War Veterans Act 
of 1998, which was enacted on October 21, 1998 as a part of the 
Omnibus consolidated appropriations legislation.
    Accompanying me today are Mr. John Thompson, Deputy General 
Counsel; Dr. Frances Murphy, Chief Consultant, Occupational and 
Environmental Health; and Mr. Bob Epley, Director of the 
Compensation and Pension Service. Although the letter inviting 
us today refers to VA's implementation of the Persian Gulf War 
Veterans Act of 1998, VA is also charged with simultaneously 
implementing the provisions of Section 101 of the Veterans 
Program Enhancement Act of 1998, which established an 
overlapping frame work for addressing issues related to the 
health status of Persian Gulf veterans.
    Thus, our implementation of the former statute must take 
into account our responsibilities under the later. The Program 
Enhancement Act was passed by the House of Representatives on 
October 10, 1998 and subsequently passed without amendment by 
the Senate and cleared for the President on October 21, 1998.
    Passage by the Senate occurred only hours after its final 
action on an Omnibus appropriation measure, which included the 
Gulf War Veterans Act provisions based on the adoption of an 
amendment offered by Senator Byrd. The Omnibus appropriation 
measure was signed into law that day. The Program Enhancement 
Act was signed into law on Veterans Day, November 11, 1998.
    Thus, VA was presented with the unusual situation of 
interpreting and implementing two similar purpose acts that 
were passed within hours of each other. Although similar in 
purpose, there are several instances in which these measures 
take seemingly inconsistent approaches to the study of health 
risks associated with service in the Gulf war and the provision 
of compensation to veterans who may have incurred disability as 
a result of Gulf war service.
    In addition, the Gulf War Veterans Act contains a provision 
to nullify Section 101 of the Veterans Program Enhancement Act 
of 1998 or ``any similar provision of law enacted during the 
second session of the 105th Congress requiring an agreement 
with the National Academy of Sciences regarding an evaluation 
of health consequences of service in Southwest Asia during the 
Persian Gulf War.''
    In view of the inconsistencies in the two statutes and the 
purported nullification provision in the Gulf War Veterans Act, 
on December 8, 1998, VA's General Counsel asked the Department 
of Justice's Office of Legal Counsel for an opinion regarding 
VA's implementation of the two statutes.
    The Justice Department responded to the General Counsel's 
letter on March 12, 1999. In brief, the Justice Department 
opines at Section 1604 of the Gulf War Veterans Act is 
constitutionally invalid and ineffective in so far as it 
purports to nullify certain described legislation, including 
Section 101 of the Program Enhancement Act that might be 
enacted in the future.
    The respective provisions of the two laws, although 
redundant and burdensome in some respects, if both laws are 
given effect, are not inherently conflicting or mutually 
exclusive. Therefore, the provisions of both laws must be 
treated as valid and effective.
    With respect to the areas of conflict between the two 
statutes, the Justice Department found the most significant 
variation between the two bills to be the action required to be 
taken by the Secretary after receiving a report from the NAS.
    Following receipt of the opinion, VA's General Counsel 
conducted an intensive review of the provisions of each statute 
in order to ensure proper implementation of both statutes by 
all concerned parties. As a result of this review, the General 
Counsel has advised VA's program officials as to the measures 
needed to fulfill VA's duties under the two laws.
    I understand that you are particularly interested in the 
contract with the NAS, including its status, terms, conditions, 
and time lines. I will briefly summarize this information and 
will be happy to provide a copy of the full contract to you.
    Because of the real concerns and fears of Gulf war veterans 
and their families about the health consequences of military 
service in the Gulf war, the Under Secretary for Health sent a 
letter to NAS on October 31, 1997 requesting that NAS 
comprehensively review, evaluate, and summarize the available 
scientific and medical information regarding the association 
between exposures during the Gulf war and adverse health 
effects experienced by some Gulf war veterans.
    The National Academy of Sciences' proposal was accepted and 
the contract was signed on June 24, 1998, which was 4 months 
prior to the enactment of Public Law 105-277. An NAS committee 
will provide a comprehensive review, evaluation, and summary of 
available scientific and medical information regarding the 
association between exposures during the Gulf war and adverse 
health effects experienced by Gulf war veterans.
    This review will include an assessment of biologic 
plausibility that exposures or synergistic effects of combined 
exposures are associated with illnesses experienced by Gulf war 
veterans. The NAS will make recommendations for additional 
scientific studies to resolve areas of continued scientific 
uncertainty related to health consequences.
    The total estimated cost of this review is $1,250,000 over 
a 27-month period from June 1, 1998 through August 31, 2000. 
The initial year funding was established at $500,000. The 
project is being conducted in three phases. In the initial 
phase, the NAS is identifying health outcomes of interested and 
selected exposures to be examined.
    Exposures may include, but are not limited to depleted 
uranium, pesticides, insecticides, chemical and biological 
warfare agents, vaccines, pyridostigmine bromide, health 
stress, solvents, paints, fuels, smoke from oil well fires, and 
sand.
    A review of the literature regarding some prototypic 
exposures and associated health effects is being conducted to 
develop methods to be used for analysis and synthesis of 
different types of research findings.
    For example, animal toxicology data, occupational exposure 
data, and epidemiology data. Latency periods between exposures 
and manifestation of illnesses will also be assessed.
    The analysis will take into account the strength of 
scientific evidence and the appropriateness of the methods used 
to identify association; whether the evidence indicates the 
levels of exposure were comparable to the exposures of Gulf war 
veterans, and whether there exist a plausible biological 
mechanism or other evidence for an association.
    A report of the activities and finds of the committee will 
be produced. During phase II the remaining exposures will be 
subject to similar review and analysis. Finally, VA will seek 
to enter into a contract with NAS for a series of updated 
reviews to be conducted every 2 or 3 years. The committee plans 
to meet 6 or 7 times during the 27 months.
    Meetings were held in January and February 1999. The third 
is scheduled for April 27th and 28th. A report will be prepared 
and issued which describes the framework by which association 
is to be determined, criteria by which specific exposures and 
adverse health outcomes are to be considered for study, a list 
of exposures and outcomes to be considered in the first two 
phases, and language to be used to categorize the associations 
under study.
    The report will include a literature review of the 
association between specific health effects and three to six 
exposures experienced during Gulf war deployment, and 
directions for future scientific research to resolve continued 
scientific uncertainty for the exposures assessed within the 
report. The exposures covered in this first report will be 
chosen to reflect a variety of data sources and methodology 
problems.
    For example, a review of associations which depend most 
heavily on biologic plausibility in animal toxicology data will 
differ from associations dependent upon occupational exposure 
and populations other than Gulf war veterans, and from 
associations dependent on exposure data and epidemiology data 
from Gulf war veterans.
    Because this effort predated the enactment of Public Law 
105-277, it does not conform precisely to the legislative 
language. The study has been designed by the NAS to be of high 
scientific merit and to be completed in the shortest timeframe 
deemed feasible. Therefore, we feel that it fully meets the 
intent of Public Law 105-277 and the similar Public Law 105-
368. More importantly, this study will provide a thorough 
review of the scientific literature by an expert committee. 
Their conclusions are of utmost importance because they will 
form the basis for compensation decisions.
    We are certain that the current contract sets out the 
minimum time required to provide a high quality, comprehensive 
literature review. This genuine effort responds to the concerns 
of Gulf war veterans and their families and the intent of 
Public Law 105-277. The Persian Gulf Veterans Act of 1998 also 
asked VA to enter into an agreement with the NAS to review and 
identify empirically valid models of treatment for various 
chronic illnesses that employ success treatment modalities for 
populations with similar symptoms.
    Under this review the NAS would make recommendations for 
additional scientific studies and treatment trials. In 1998 VA 
contracted with the NAS to provide advice on the optimal 
methods to assess the health status of Gulf war veterans and 
the effectiveness of treatments being delivered by the 
Department. The NAS will complete this project in June 1999. 
After the final report is completed, the committee will 
continue and expand its study to address the mandate of Public 
Law 105-277 concerning treatment models.
    I understand that some observers have expressed concerns 
about delays in research and the negative impact on medical 
care and other benefits and services that Gulf war veterans 
have earned through their military service. Please be assured 
that research efforts and other important efforts on behalf of 
Gulf war veterans are continuing uninterrupted. Large numbers 
of Gulf war veterans are receiving medical attention from VA. 
Over 230,000 Gulf war veterans have received health care 
services at VA facilities. More than 74,000 Gulf war veterans 
have completed the VA Gulf War Registry Examination Program.
    Gulf war veterans with difficult to diagnose illnesses are 
still being transferred to our four national Gulf war referral 
centers for intensive in-patient examinations and special 
consultation. Gulf war veterans with chronic undiagnosed 
illness, as well as those with diagnosed service connected 
illnesses are receiving disability compensation.
    VA has granted claims for service connection for more than 
128,000 Gulf war theater veterans have. We are totally 
committed to providing the benefits and services to which these 
veterans are entitled. Mr. Chairman, we were recently advised 
of the committee's interest in the status of the number of Gulf 
war veterans disability claims for which additional review was 
determined to be warranted.
    On July 16, 1996 our Compensation and Pension Service 
mandated a review of all previously disallowed Gulf war 
disability claims. The purpose of the review was to assure that 
all necessary development had been completed, and to assure 
that all evidence had been properly considered in reaching the 
decision.
    At that time, 10,736 claims were developed for 
readjudication. The results of that readjudication are as 
follows: service connected was granted in 2,802 claims. 
Compensation for undiagnosed illness was granted in 1,348 
claims. That figure includes 1,044 previously denied 
undiagnosed conditions, and 304 newly considered undiagnosed 
conditions. Diagnosed conditions were granted service 
connection in 1,454 claims. That figure includes 597 previously 
denied undiagnosed conditions and 857 newly considered 
diagnosed conditions. In 5,264 claims there were no changes on 
review, but service connection had already been granted for 
another condition. In the remaining claims, service connection 
could not be granted for any condition and denial of service 
connection was confirmed. There are four cases for which action 
has yet to be completed under this review. That concludes my 
statement. My colleagues and I would be happy to answer any 
questions that you have.
    [The prepared statement of Dr. Mather follows:]
    [GRAPHIC] [TIFF OMITTED] T5548.008
    
    [GRAPHIC] [TIFF OMITTED] T5548.009
    
    [GRAPHIC] [TIFF OMITTED] T5548.010
    
    [GRAPHIC] [TIFF OMITTED] T5548.011
    
    [GRAPHIC] [TIFF OMITTED] T5548.012
    
    [GRAPHIC] [TIFF OMITTED] T5548.013
    
    [GRAPHIC] [TIFF OMITTED] T5548.014
    
    Mr. Shays. Thank you very much, Dr. Mather.
    We did not swear in two witnesses. Dr. Tollerud, we need to 
swear you in and we also need to swear in Dr. Carolyn Fulco. If 
you do not mind standing up and I will administer the oath. 
Thank you.
    Do you solemnly swear or affirm that the testimony you will 
give before this subcommittee will be the truth, the whole 
truth, and nothing but the truth?
    [Chorus of ayes.]
    Mr. Shays. Thank you very much. Thank you Dr. Mather. Now, 
we will go to Dr. Susanne Stoiber.
    Ms. Stoiber. Good afternoon Mr. Chairman. I am Susanne 
Stoiber. I am executive officer of the National Academy of 
Sciences Institute of Medicine. My colleagues and I are here 
today to provide testimony and answer questions about the 
current IOM study related to the health effects associated with 
exposures experienced during the Persian Gulf war, and the IOM 
contract with the Department of Veterans Affairs, sponsors of 
that study. I am accompanied today by Dr. David Tollerud who is 
professor at the School of Public Health at the Medical College 
of Pennsylvania, Hahnemann University in Philadelphia. Dr. 
Tollerud has served on three Institute of Medicine committees 
to review the health effects of Vietnam veterans' exposure to 
herbicides. He chaired two of those committees. Has indicated, 
also present are two senior IOM colleagues, Carolyn Fulco, 
Director of the Gulf war study and Dr. Kathleen Stratton who 
oversees our general work in this area. My testimony summarizes 
the National Academy of Sciences Institute of Medicine 
procedures for conducting studies and the history and status of 
our current project on the health effects of Persian Gulf war 
exposures. I will not repeat that testimony.
    The credibility and value of our reports rest on the 
processes that we follow to ensure that the work of our 
committees is independent and is scientifically rigorous. To 
that end, we enlist the Nation's leading scientists to conduct 
the studies. These scientists serve without compensation and do 
the work for us in addition to their regular jobs. We protect 
against bias and conflict of interest and have very rigorous 
procedures for ensuring that end.
    We require a comprehensive and rigorous review of the 
evidence. Following the completion of the committee's work, we 
have an equally difficult, rigorous peer review of the 
committee's work by a second group of leading scientists who 
mirror the expertise on the original committee.
    This is a time consuming process, and especially so when 
the subject is complex and the evidence to be examined 
extensive. The resulting reports however provide accurate and 
conclusive answers. That is our commitment. We believe that 
nowhere is this more important than in the work we conduct on 
behalf of the Nation's veterans.
    The IOM is especially pleased to have the opportunity to 
work on studies that shed light on the nature of illnesses 
experienced by our country's veterans. I will now turn to Dr. 
Tollerud who will provide more extensive information on the way 
our study committees have conducted their work on Agent Orange.
    Our work on Agent Orange provided the model, the blue print 
for how we propose to conduct the work on Persian Gulf 
exposures. Therefore, I think knowing slightly more detail 
about how they proceeded and the difficulties they encountered 
will help in our discussion on how quickly work can be 
completed on Persian Gulf.
    [The prepared statement of Ms. Stoiber follows:]
    [GRAPHIC] [TIFF OMITTED] T5548.015
    
    [GRAPHIC] [TIFF OMITTED] T5548.016
    
    [GRAPHIC] [TIFF OMITTED] T5548.017
    
    [GRAPHIC] [TIFF OMITTED] T5548.018
    
    [GRAPHIC] [TIFF OMITTED] T5548.019
    
    [GRAPHIC] [TIFF OMITTED] T5548.020
    
    [GRAPHIC] [TIFF OMITTED] T5548.021
    
    [GRAPHIC] [TIFF OMITTED] T5548.022
    
    Mr. Shays. Can I interrupt you? I feel a little guilty 
taking off my coat without inviting any of you to do this. It 
is kind of hot in here. Please feel welcome to do so.
    Dr. Tollerud. Good morning, Mr. Chairman, and members of 
the committee. My name is David Tollerud. I am a professor in 
the school of public health at MCP Hahnemann University in 
Philadelphia. I also have the unique distinction of having 
served as co-chair of the original IOM Committee to review the 
health effects in Vietnam veterans of exposures to herbicides, 
and as chair of the two followup committees.
    In total, I have served on these committees for some 8 
years. I appreciate the opportunity to provide testimony to you 
today based on my experience from the veterans and Agent Orange 
studies. I was requested to provide testimony because the 
Vietnam veterans studies are very similar to the Persian Gulf 
veterans study that is the subject of this hearing.
    The Gulf war committee will use the Veterans and Agent 
Orange reports as their model. However, I must point out an 
important difference between these efforts. The Veterans and 
Agent Orange studies examined only one category of exposures: 
the major herbicides used in Vietnam and the herbicide 
contaminant dioxin.
    Within this category of exposures, the committee focused 
primarily on a single compound dioxin; more specifically 2378, 
tetrachlorodibenzo-p-dioxin, because of the vast number of 
scientific studies suggesting adverse health outcomes that 
might be associated with exposure to it.
    Each of the Veterans and Agent Orange studies took 
approximately 18 months to 2 years to complete. The Gulf war 
study will include at least 12 categories of exposures each 
comprised of multiple chemicals. I am told there are 
approximate 34 specific chemicals or chemical compounds listed 
in Section 1603 of Public Law 105-277; a list similar to that 
specified in the Department of Veteran Affairs contract with 
the Institute of Medicine.
    Given the far larger number of categories of exposure 
proposed for the Gulf war study, it is my opinion that the 
timeframe developed by the IOM and the Department of Veterans 
Affairs, and delineated to you today by Ms. Stoiber, is 
reasonable.
    I do not believe that the time table stipulated in the 
Persian Gulf Veterans Act of 1998, which requires a final 
report addressing all 12 categories in 18 months would allow an 
Institute of Medicine committee to complete its tasks with he 
scientific rigor and attention to the interest of veterans that 
this work demands.
    In support of these opinions, I would like to relate to you 
the elements that went into making the Veterans and Agent 
Orange series of reports and that are proposed for the Persian 
Gulf veterans study. Almost all National Academy of Sciences 
reports are written by committees of scientists. Committee 
members are individuals who serve on a volunteer basis and 
receive no compensation for their work.
    Assembling a committee for an effort like the Veterans and 
Agent Orange studies and this Gulf war study is a time 
consuming task because IOM holds the members of its veterans 
health committees to its highest standards for participation. 
Committee members must not have any research grants from the 
Department of Veterans Affairs because in conducting its work 
the committee must operate independently of DVA.
    They must also have no research or consulting involvement 
with businesses that might have an economic stake in matters 
under the committee's consideration. Staff must find scientists 
who are willing to devote considerable time and energy to a 
project that is not directly related to their own research 
because committee members must not have had prior direct 
involvement with the issues before them, nor have taken a 
public position on them.
    Committee members are thus required to learn and comprehend 
a new topic; a process that necessarily takes time. The 
Veterans and Agent Orange Committee realized from the beginning 
that it could not conduct a credible scientific review without 
a full understanding of the experiences and perspective of the 
veterans.
    Therefore, to supplement its standard scientific process, 
the committee opened several of its meetings to the public to 
allow veterans and other interest individuals to voice their 
concerns and opinions, to provide personal information about 
their exposures and associated health effects, and to educate 
the committee on recent research results and studies still 
underway.
    While it takes time for the committee to gather this type 
of information, it provides a meaningful backdrop for the 
numerous scientific articles that the committee reviewed and 
evaluated. I am pleased to hear that the IOM proposes to 
conduct the Gulf war study in a similar manner. I believe it is 
important that they be given the time to do so.
    The Veterans and Agent Orange Committee gathered 
information from multiple sources, always with the goal of 
seeking the most accurate information and advice from the 
widest possible range of knowledgeable sources.
    Consistent with the procedures of the IOM, the committee 
met in a series of closed sessions and working group meetings 
in which members could freely examine, characterize, and weigh 
the strengths and limitations of the vast array of scientific 
evidence.
    In addition to these formal meetings, the committee 
actively and continually sought information from a broad array 
of individuals and organizations with interest or expertise in 
assessing the effects of exposures to herbicides, just as the 
Gulf war committee has planned. These interactions include 
frequent meetings with representatives of veteran service 
organizations, congressional committees, Federal agencies, and 
scientific organizations. One of the many ways the Vietnam 
Veterans Committee heard from the public was through several 
hundred telephone calls, letters, and e-mails, each of which 
received a response from IOM staff, just as the Gulf war 
committee and staff are doing.
    This important part of the process takes a great deal of 
time. During the course of the first Agent Orange study, which 
I would again remind you focused on one exposure, the committee 
or staff read approximately 6,400 abstracts of scientific and 
medical articles which were all entered into a computerized 
bibliographic data base.
    I am told that the Gulf war committee and its staff have 
already reviewed and cataloged over 10,000 abstracts and their 
work is just beginning. As time consuming as the beginning 
efforts are in such studies, the real work is in evaluating the 
articles, determining the strength of the findings, and 
discussing the outcomes among the committee members.
    The value of the iterative and deliberate processes that 
are the hallmark of such studies is that the result is a 
comprehensive, unbiased, scientific review of all of the 
available evidence regarding the potential health effects of an 
exposure. More importantly, the document that is produced is a 
consensus of the collective knowledge of that committee. Each 
committee member is able to defend the findings, conclusions, 
and recommendations in the final report because each has been 
through a lengthy committee process that has built a bond of 
trust among all participants.
    In my opinion, it is simply not possible to substantially 
shorten the period of time necessary for this confidence to 
develop. All of the evidence from multiple sources must 
ultimately be assembled into coherent chapters. The draft 
chapters are discussed, written, and rewritten multiple times 
before they accurately reflect the committee's findings and 
conclusions.
    The chapters must be organized into a document that 
characterizes the committee's thinking and conclusions, and 
represent a consensus of the committee's collective 
recommendations. This process is also iterative and 
deliberative and represents an additional investment of time.
    Finally, the IOM requires an extensive and lengthy peer 
review process for the document in order to assure its 
scientific integrity and the appropriateness of its 
conclusions. The review process requires identifying and 
nominating a panel of external reviewers who are also 
volunteers. There is also an internal academy review committee.
    These external and internal reviewers provide feedback 
which strengthen and enhances the scientific integrity and 
effectiveness of the committee's product. This independent 
review is regarded as an essential safeguard in maintaining a 
high standard for all academy reports and lends credibility to 
each approved manuscript.
    This process which takes several months to complete is a 
hallmark that distinguishes the academy from many other 
organizations offering the Federal Government scientific and 
technical advice. It is one of the primary reasons that academy 
reports are often the final word on issues of importance to the 
Government and others.
    The review process, like each step in conducting an academy 
study, is thoughtful, deliberative, and requires time. I hope I 
have been able to provide you with insight into why academy 
studies of veterans health issues take time and need to take 
time, and to lend support to the time line in the current 
Department of Veteran Affairs' contract with the IOM to study 
the health effects associated with exposures experienced during 
the Persian Gulf war.
    Thank you for your attention. I will be happy to answer any 
questions.
    [The prepared statement of Dr. Tollerud follows:]
    [GRAPHIC] [TIFF OMITTED] T5548.023
    
    [GRAPHIC] [TIFF OMITTED] T5548.024
    
    [GRAPHIC] [TIFF OMITTED] T5548.025
    
    [GRAPHIC] [TIFF OMITTED] T5548.026
    
    Mr. Shays. Thank you very much, Doctor. I would just like 
to first acknowledge the presence of Janice Schakowsky who is 
from Illinois. It is nice to have you here. She is a new Member 
and a very effective Member of Congress. I am trying to get a 
sense of where we are headed here.
    One of the things that I take as given, and I would ask the 
three witnesses to respond in the order of their testimony; my 
general understanding is that the VA accepts the fact that they 
have two mandates of Congress that while having some 
differences clearly are not incompatible and that the VA 
intends to abide by the law and the language. I guess, Dr. 
Mather, that is your question.
    Dr. Mather. Yes, sir. That is the case.
    Mr. Shays. I do not care, given the other things I am 
interested in to figure out whether the lawsuit made sense or, 
excuse me, the request made sense to the Justice Department or 
not. It may have or it may not have. I am less concerned with 
that. I am more concerned with getting a sense of the effort to 
live by the spirit of the law. I wanted to know what that 
means.
    You clearly had a contract the year before to begin this 
process. Is there any inability on the part of the VA to 
renegotiate the contract to try to have it conform as closely 
as possible to the law?
    Dr. Mather. No, sir. We feel though that the contract that 
we have now is a good approach and is the best approach. We 
certainly agree that the law is firm in the interim report. 
After the meeting on the 27th of this month, we expect that 
there will be a report from the committee that will talk about 
where they are so far.
    It will be a brief report. We get quarterly reports on 
contracts anyway. I think this would be a reasonable point at 
which to expect a report. We have already talked informally 
with the National Academy about the points of the law which do 
not appear to be covered in our current contracts and how we 
can expand those contracts.
    I think what we have now is basically a very sound approach 
to a very, very complex problem. I think the current contract 
will stand, should stand, and will need to be amended to take 
care of the other items within the laws.
    Mr. Shays. If something cannot be done, even if the law 
requires it, it will not get done, or if it can get done but it 
is absurd to try to do it, then there are some issues that have 
to be dealt with.
    What flexibility does a Department have in deciding, and I 
am not even talking the merits of this particular issue, to 
basically live by the spirit and not the letter? How does that 
work? Maybe Mr. Thompson you could tell me.
    Mr. Thompson. That is a fascinating question. What we are 
trying to do is to execute the law as faithfully as we can. 
Now, if it appears that there is an area that is just not 
feasible to do or cannot be done within the time constraints 
that Congress has ordained, we would attempt to come as close 
as we can. We would notify the committees of interest of what 
difficulties we were having.
    Mr. Shays. Congress could try to mandate that an elephant 
can fly, but it is not going to fly even though I sometimes 
think the 747 is kind of like that and it does fly. Dr. 
Tollerud, you make it very clear from your testimony that there 
is a process that you feel has to be followed and it is going 
to take a certain amount of time.
    I am going to make an assumption that there is some time 
you wanted to take to fit into your schedule and the schedule 
of everyone else that is involved in this research. There is 
the schedule that Congress wants and they conflict. But I make 
an assumption that to the best of your ability, if you can 
speed up a process the law requires it, you will do it as long 
as it does not create bad scientific results. Is that a fair 
assumption?
    Dr. Tollerud. I guess I would like to have the IOM answer 
from their perspective.
    Mr. Shays. Yes. I think that would be more appropriate.
    Dr. Tollerud. I will be happy to give you my personal view 
based on 8 years of experience.
    Mr. Shays. Ms. Stoiber, I am sorry. I should have asked you 
to do that question.
    Ms. Stoiber. That is fine. Our commitment and our interest 
in the IOM is in doing this work as rapidly as we can possibly 
do it and still produce scientifically valid and complete 
answers. So, we actually have spent a substantial amount of 
time with our Persian Gulf Committee.
    Dr. Tollerud is not on that committee. He was on the Agent 
Orange Committees; talking about whether or not we could devise 
a way to do the work faster, given the large number of 
exposures to be considered.
    After very extensive discussions with the volunteers who 
will be doing the analysis on the Persian Gulf Committee, we 
concluded that we really could not figure out a way to speed up 
the process and still feel confident that we would be able to 
deliver accurate and valid results.
    We have given it a great deal of thought. It is not just a 
matter of the volunteers trying to fit it in with the rest of 
their obligations. There is simply an enormous amount of 
literature to be absorbed in this and a need to make sure that 
we are treating it consistently across the different exposures. 
So, our belief is there is not a way to speed up this 
particular analysis.
    Mr. Shays. Let me do this. Mr. Sanders has to be at another 
hearing. So, why do I not give him the floor. I am going to be 
here.
    Mr. Sanders. Thank you very much. I will do my best to come 
back. I think I will be able to do that. Just two questions, 
Mr. Chairman. I think Dr. Mather might be the right one to 
answer, if not, whoever can answer it. The Persian Gulf War 
Veterans Act of 1998 provides the Secretary of Veterans Affairs 
with the authority to administratively determine and issue 
regulations, determining a presumption of service connection 
between the disease, illness condition, and an exposure to a 
hazardous material or combination of materials, et cetera, 
during service in the Gulf based on the recommendations of the 
NAS study.
    That is what the Persian Gulf War Veterans Act does. The 
Veterans Program Enhancement Act of 1998 requires the Secretary 
merely, here is the difference, to review the NAS 
recommendations and subsequently forward his recommendations 
regarding determination of service connection to Congress.
    I know what you are trying to do is implement to the best 
degree that you can both laws. You have a conflict over here to 
some degree. So, my question is what assurances can you give us 
that NAS findings will be reflected completely and accurately 
in the regulations called for in the Persian Gulf War Veterans 
Act to actually provide assistance to deserving Gulf war 
veterans?
    In other words, the bottom line of this and the reason that 
Chris, others, and I worked so hard on this was not some 
academic reason or scientific reason. Essentially we want to 
make sure that those people who are hurting were sick as the 
result of exposure actually get benefits. Could you, Dr. 
Mather, or Mr. Thompson, or whoever else answer that?
    Dr. Mather. I can certainly answer from my understanding. 
My understanding is that the scientific associations will be 
reflected in the Secretary's action on presumptions of service 
connection when they are received. He will both report to 
Congress and he will use that information to establish 
presumption.
    This is certainly the way it has happened with the Agent 
Orange reports. As the scientific evidence of an association 
was sufficient, either the presumption was established or in 
the case of birth defects, VA sought legislation to provide 
that.
    Mr. Sanders. So, if the presumption is established, if we 
find the cause and effect----
    Dr. Mather. It does not have to be a cause and effect, only 
that there is a significant association.
    Mr. Sanders. Yes, OK, right. That will then result in 
regulations being drawn up. Somebody has the illness and that 
person will then get the benefits to which they are entitled.
    Dr. Mather. That is my understanding.
    Mr. Sanders. OK. The second question; maybe for Dr. 
Tollerud. You mentioned using Agent Orange as perhaps a basis 
of how we are proceeding here. You referred to Agent Orange 
quite often. Would you comment on the fact that if you talk to 
the Vietnam Veterans of America, for example, they will 
suggest, as many other Vietnam era veterans, that they are not 
happy with the status of the Agent Orange work with Operation 
Ranch Hand.
    The fact that unless I am mistaken, and I do not think I 
am, that the vast majority of requests for benefits that go 
forward are denied. So, I get a little bit nervous. I am happy 
with Dr. Mather's answer, but I get a little bit nervous if you 
say, hey, we did Agent Orange pretty well and now we are going 
to continue along that path. Some of us have real concerns with 
that. Comment on that.
    Dr. Tollerud. My comments about the Agent Orange Committee 
had to do with process. I do not think that this is the forum 
to further debate the findings of the committee. Each of these 
committees were made up of, I do not know, 15 to 18 independent 
scientists. A part of the reason why it takes time to get there 
is that if you take 18 scientists and you put them in a room, 
you will get at least 21 opinions about any given question.
    It takes time to resolve that. Our commitment was to have a 
consensus report that every single committee member could stand 
behind. Sometimes that meant going back to the literature, 
bringing in others, et cetera. My comparison of Agent Orange to 
the Persian Gulf was not dealing with the findings but was 
dealing with the process.
    When we started that committee, there really was no 
template. I mean this was the first, at least in our view, it 
was the first time that a committee like this had taken on 
quite this kind of an effort, and particularly looking at such 
a large number of individuals who were exposed at such a long 
time in the past.
    So, we took models from other organizations in terms of how 
they weighed the evidence. We looked into the process and we 
had veterans and other interested parties come and give 
testimony. All of that testimony was considered. So, that is 
what I was referring to.
    Mr. Sanders. That is fair enough. I will just state that in 
fact, one of the things that motivated me, and I will not speak 
for Chris, is my knowledge that in Vermont and throughout this 
country, there are a whole lot of veterans who today are very 
upset about how the Government responded to Agent Orange and 
their health problems.
    In fact, the reason that I played my role in pushing this 
thing forward is I did not want to see that happen again. I 
wanted the assumption to be that if scientists believe there is 
an association between an illness and an exposure to a chemical 
or environmental hazard, we are going to give the benefit of 
the doubt to the veteran this time and give them the benefits 
and the health care they need, rather than fighting them as we 
had for so many years with Agent Orange.
    Mr. Shays. Ms. Schakowsky, did you have any questions?
    Ms. Schakowsky. Yes. Thank you Mr. Chairman.
    I am new to this issue. So, you will forgive me if I ask a 
silly question. You talked about the time line, Dr. Tollerud 
and as you did, Ms. Stoiber, about how long the committee takes 
to deliberate. Of course, we want good scientific data.
    Why do we just have one committee? Why cannot we have more 
committees to look at more substances so that we can move a bit 
faster? I mean if one committee is good, why is not two 
committees better or three committees better?
    Ms. Stoiber. It is a very reasonable question and it is one 
we asked ourselves because as we looked at the requirements of 
the legislation and understood what the Congress wanted and 
obviously what the veterans wanted, we brought together our 
core committee for the Persian Gulf study and examined the 
question of whether or not we could divide the work and 
consider more exposures more rapidly.
    I will let Carolyn Fulco comment on this in more detail. 
The conclusion was we need first of all to make sure that the 
methodology we are using for these exposures is one that will 
meet the committee's standards in terms of assessing the 
scientific literature.
    That phase I of this study in which we will be looking at 
five exposures is the process by which we will know that our 
approach to this is going to yield the results that we think it 
should. Phase II of our study will in fact, in a shorter period 
of time, enable us to complete analysis of the remaining 
exposures.
    Our committee members felt that until phase I is completed, 
we simply cannot be certain that it could be divided into 
multiple groups and essentially run in parallel. There is an 
enormous need to make sure that we keep consistency in the 
analysis of the different exposures and also a need to make 
certain that we have carefully looked at all of the available 
literature.
    If we hurry it, we may end up missing some critical 
evidence that would establish a conclusion that may be missed 
otherwise.
    Ms. Schakowsky. Let me just ask you a question then based 
on what you have said. After Phase I it would seem to me 
possible, unless a methodology is established, that one could 
have more committees; could one not?
    Ms. Stoiber. We do not believe that multiple committees are 
the right approach. We believe that you have to maintain 
consistency across all of these. The remaining exposures can be 
analyzed as we have proposed more quickly because we have the 
methodology in place and we are confident of it.
    Dividing the work among independent committees who will 
then have to confer with each other and review each other's 
work to make certain that everything is being treated 
consistently would not shorten the process. It might in fact 
lengthen it as we go into the overall review. If I could ask, 
Carolyn, do you have anything to add to that?
    Mr. Tollerud. Can I add a comment?
    Ms. Stoiber. Sure.
    Mr. Tollerud. I think from the standpoint of a committee 
member, and we have not had any discussions related to that 
particular question or issue. I have not been involved with any 
of the IOM's internal deliberations. So, this is just off the 
cuff from me. First of all, there are no silly questions. There 
are only silly answers.
    From a committee's standpoint, I guess I would second the 
notion that adding manpower essentially and dividing into small 
groups is not likely to shorten the process and in fact may 
well lengthen the process.
    What I observed in three consecutive IOM Committees where 
each subsequent committee was made up about 50 percent old 
members and 50 percent new members in order to have a new 
infusion was this.
    The first third or so of the second committee's process or 
the subsequent committee's process was heavily involved with 
understanding what the first committee had done so that they 
could either disagree and do something differently and then 
explain it or carry on that process with some consistency.
    We as scientists reviewing other scientists' work are 
extraordinarily skeptical people. You start with the premise 
that you probably screwed up and let us see if we can make it 
better. It takes a long time to work through that and make a 
decision about whether or not in fact the process did work or 
did not work.
    Each committee came to the conclusion that the process in 
fact did work. By the end of their deliberations all were 
confident that the process has worked very well. My concern is 
that if you have several committees or two committees going on 
in parallel, they are going to be divergent.
    You will end up at the end with either a conflict in the 
reports or some inconsistency in the reports which I think is 
the last message that anybody wants to send to the veterans, 
that after all of that amount of time and effort, they still 
did not get it right.
    I appreciate the committee members' comments that there 
continue to be veterans who are dissatisfied with the sum total 
of what has been done with Agent Orange. I fully understand 
those. As a physician I understand those concerns. Nonetheless, 
It has been my sense in talking with veterans' organizations 
and my scientific colleagues that virtually nobody agrees with 
everything in the report. That is fine. At a minimum, I think 
virtually everyone agrees that the process was sound. That the 
work has integrity. That it has stood the test of time.
    The last committee in fact found very little to tinker with 
in terms of the levels of evidence. Each of the conclusions of 
the prior committee were found to be strengthened by the dozen 
or 2 dozen major new studies that have come out in the last 2 
years.
    So, that gives us a lot of confidence that we in fact did 
it right and that the documents are there and they will stand 
the test of time. They will not have to be second- guessed in 
the future. I think that is important.
    I understand the difference between 18 months and 3 years, 
whatever the time difference is, for somebody who is suffering, 
for somebody who has a condition, for somebody who is waiting 
for compensation, or for somebody's spouse who is waiting for 
compensation, or children. It seems like an eternity.
    I think it is just critical that we do it right. If you 
rush the process and do it wrong, or do it substandard, or do 
it in a way that can be challenged, then that difference in 
time span will, I think, I mean any level of conflict about the 
results, any challenge to the results in my view will absorb 
much more time than the marginal amount of time commitment to 
do it right the first time. This was just a personal opinion.
    Ms. Schakowsky. Can I ask one more?
    Mr. Shays. One of the advantages of having less members is 
that we do not have a clock.
    Ms. Schakowsky. OK. Again, I feel disadvantaged by not 
being a scientist. My understanding is the committee is 
reviewing these sets of exposures. If there is a certain 
methodology that has been established to do it that clearly if 
we are talking about 13 groups or 30 different chemicals or 
whatever it is, if you have to repeat the same thing over, and 
over, and over again, that dividing it up again, explain to me 
why once you have established what the scientific method is, 
the methodology, why you have to have it all done by the same 
group.
    Mr. Tollerud. Well, the reason is because the methodology 
is not unfortunately a numerical approach where a board or a 
group of people can rank different papers or whatever and at 
the end of the day count it up and it comes down. I mean the 
exposures are complex. The levels of exposures are complex.
    The studies to evaluate them are complex. They are rarely, 
if ever, sort of direct measurements. There are a lot of 
assumptions that go into that. In the end, the reason the IOM I 
believe chose to bring together independent scientists who did 
not have prior experience is because in the end these are 
judgment calls.
    There are very few, with Agent Orange for example, there 
were a few conditions, which seemed apparent from the 
beginning, and they were in the sufficient evidence category. 
Frankly, we did not spend a great deal of time looking at 
those. If the evidence was clear, if the evidence seemed to be 
overwhelming, the evidence was reviewed and it was cataloged, 
but that went very quickly.
    Unfortunately, for most of the conditions of concern to 
veterans, I would say the vast majority of conditions that are 
of concern to veterans do not fall into those sort of clean 
evidence categories for a variety of reasons, not the least of 
which has met most of the concerns that I have heard relate to 
conditions that are relatively common in the general public.
    The current theme for Agent Orange, for example, one of the 
biggest concerns that is sort of on the scientific horizon is 
whether or not diabetes might be associated with Agent Orange 
exposure. There is an enormous amount of scientific evidence to 
go into it.
    This is something that is so prevalent in society that it 
becomes a very complex question and a lot of judgment to 
understand whether in fact this is diabetes in and of itself or 
diabetes that might have been related to a specific exposure.
    The answer to the question is that it is a difficult 
process with a lot of judgment. We say methodology and it 
sounds clear cut. The methodology in this that ultimately 
decides where conditions are placed in the categories of 
evidence which ultimately influences VA's reaction, in terms of 
the legislation, if you read those categories of evidence, and 
we can provide them if you want, but if you read those 
categories of evidence, they are judgmental.
    The sufficient evidence means that one or more studies are 
evaluated as being high quality without bias and a whole bunch 
of other things that can cripple the value of a study. All of 
those are judgment calls. For the conditions that are of most 
concern there are studies on one side and studies on another 
side. It takes a lot of weighing of that evidence to come 
forward.
    Ultimately what a single committee does is they will make 
up their mind in the first part of the study, phase A if you 
will or whatever the beginning is. They will make up their 
mind. Everybody will sort of lock into it. The committee will 
lock into sort of an understanding of where they are going to 
make the cuts. What is going to be the standard that this 
committee is going to evaluate in terms of strength of 
evidence?
    It will be a judgment. There is always a gray zone there. 
The committee will say that this is going to be our standard 
that we are going to stand by. Once you do that, then you can 
begin clicking through the various exposures much more quickly 
than starting up other committees that have to go through that 
whole process, lock into a certain way they are going to make 
their divisions between the categories, and pray that, that 
committee's divisions are the same as the first.
    I think what we all would not like to see is to have 
veterans who were exposed to depleted uranium treated 
differently than veterans who were exposed to biologicals, for 
example, because one committee thought differently from another 
committee. Again, I think that the time consuming part of this 
process and the gelling of a committee are a real phenomenon.
    It is not artificial. It takes time for those independent 
thinkers to come to a consensus. Once you have done that, once 
you have got that committee gelled, then you can move fairly 
quickly through the other exposures. I think that at that point 
adding manpower simply dilutes the process.
    Mr. Shays. Thank you very much. They were excellent 
questions. That was very helpful to the committee and I 
appreciate the responses. I know that this committee is going 
to attempt to monitor this process, but I am really unclear 
right at the moment how we are going to do that.
    Jim Toote had given us his reading of the act and the time 
line. I believe that the VA has given us their kind of sense of 
what the time line is. I think that maybe I need to understand 
something pretty basic. The VA has asked you to do this study.
    So, this issue is, I mean through Congress, but this issue, 
you have a contract with the VA. So, the whole issue of time 
lines is an issue that I need to address more with you than 
with the VA?
    Ms. Stoiber. Our contract has certain time lines specified 
in it. In terms of what we are able to do and deliverables at a 
certain date, then we need to discuss it. Obviously, any 
matters that are at issue with the VA we cannot speak to.
    Mr. Shays. Well, let me just cut through some of this as I 
see it. If this is an issue that the contract allows you a 
certain process, then that is one thing. If it is an issue that 
is that science simply does not enable you to do it 
differently, then that is another.
    As I listened to your questions the gentle lady from 
Illinois, I am struck by the fact that says--well, my 
understanding is, for instance, the bill requires a list of 34 
toxins. It is my sense that we are going to begin with five, 
give or take.
    Ms. Stoiber. That is correct.
    Mr. Shays. You have attempted logically to identify the 
five that the veterans were most concerned with and what 
scientists as well thought might be the most serious. Is that 
correct?
    Ms. Stoiber. The scientists felt there were any number of 
ways you could begin the analysis and that the proposed 
exposures favored by the veterans groups are as good 
scientifically as any other approach. There was no difference 
in terms of thinking about priorities.
    Mr. Shays. Well tell me why, other than resources, you 
could not do a study of the five, a study of another five, a 
study of another five, and a study of another five all at the 
same time, other than resources?
    Ms. Stoiber. Right. Let me first answer the question that 
was implicit in your preface to the question, and that is was 
the contract the constraint for us? When the VA approached us 
initially about doing this study, they did not have a specific 
timetable specified in their approach to us. They asked us 
basically to give them a proposal for how we could approach 
this work.
    Therefore, the timeline that is provided in our contract is 
really a timeline that we recommended to the VA for assessing 
the 34 exposures. So, the constraints are not artificial from 
the VA to us. They really are reflective of what we thought it 
would take to do the job in terms of our committee process. 
There are some obviously ancillary issues of interim reports 
and so forth that I think can be dealt with. So, that is not 
what I am addressing.
    Mr. Shays. Let me just tell you. I take a bit of a bias 
here and I am going to be really candid. I would always want to 
be candid, but I am going to say what I think about that. I can 
ask someone to build my house. I am going to tell him what I 
want built. He is going to tell me how it fits in with his 
schedule of other houses he is building.
    I need you to be a little more precise about the timetable 
because the law is clear. It would be really misleading for us 
to leave today thinking that the only restraint would be good 
science. If in fact we put more resources into this, then could 
it be done sooner? Were you, for instance, given a specific 
contract with a certain amount of money allocated?
    Ms. Stoiber. I was not a part of that negotiation. I think 
my colleagues could answer that, that was not a part of the 
discussion.
    Mr. Shays. I need you to come up. Let me say to you that I 
would think that you had been given some kind of budget. So, it 
is not a criticism. I just want to know the score.
    Ms. Stratton. Actually, Mr. Chairman, we proposed a budget 
to them. So, VA did not tell us how much they have in their pot 
to pay for this study. Rather we decide what it will take to do 
the project in the best interest of the science and develop a 
budget based on our experience from doing many studies 
similarly. Then we submit a proposal with a budget to the VA, 
which they accepted in full with no modifications. So, in fact 
it really was what we proposed to them.
    Mr. Shays. This is basically allowing, in a sense, the 
consultants to write their own contract. You are going to write 
it, in my judgment, to fit your needs as well as the needs of 
the person providing the request.
    Dr. Murphy. I do not know that you got a sense of the kind 
of process we go through in developing contracts with the 
National Academy of Science. They are an independent 
organization. We sent a letter to the NAS on October 31, 1997 
requesting that they consider doing this committee work for us 
with a specific set of criteria that we would like to see the 
committee include in their study.
    Also, I think that it would be fair to say that the IOM and 
the VA had lengthy informal discussions about how to proceed. 
They developed a process, developed a budget, gave the proposal 
back to us then Kathleen Stratton and I discussed in detail 
whether there was any way, knowing the urgency and the concerns 
of the Gulf war veterans and their families, whether this 
process could be shortened.
    From the very beginning, VA recognized that Gulf war 
veterans do not want answers 2 years from now or 5 years from 
now. They wanted answers back in 1992 when they first returned 
from the Gulf.
    Mr. Shays. I think that is accurate.
    Dr. Murphy. So, we recognized that from the very beginning 
and discussed at length about how the process might be 
shortened. We came to the conclusion jointly that NAS had 
developed the best proposal that would produce valid scientific 
answers.
    Mr. Shays. Let me just say to you that I was with you until 
that last point. It is just hard for me to imagine that it is 
only one way and one way only. I cannot believe that. I cannot 
believe that with additional resources that it could not be 
done more quickly, unless you are telling me that you have to 
allocate your resources somewhere else.
    Ms. Murphy. The resources that are scarce for us are not 
those that we could buy with additional money in the contract. 
The core of our work is our ability to identify and engage the 
volunteer time of a diverse range of scientists who not only 
have to be the leading experts in the given areas on a 
committee, but also are precluded as we indicated in the 
beginning from holding contracts with the sponsoring agency, of 
having any kind of consulting or other financial or personal 
relationships with businesses that could benefit or suffer from 
the findings of the committee.
    So, you start with a relatively small pool of experts who 
would be suitable to serve on the committee. You diminish that 
pool further by the exclusion of those who might bring bias or 
conflict of interest to it. Then you have to find people who 
can fit this in their otherwise busy schedules.
    The quality and the authority of our work depend entirely 
upon our ability to get people to volunteer their time for 
this. It is a very significant amount of time that they have to 
devote to it. In just the first exposures that we will look at 
in the study that we have commenced, the committee members will 
be expected to review probably 12,000 to 15,000 articles that 
yield information of different quality and different 
perspectives on these exposures.
    That means a great deal of not only of the literature, but 
then coming together to deliberate and argue about the value of 
different studies. So, it is an enormous time commitment for 
them to make.
    So, our constraints are not those of the IOM. I would 
gladly go higher several additional staff people and wrap up a 
process if that could enable us to give accurate and conclusive 
results. Our limitations really are those of finding the 
scientists who can meet our standards and participate.
    Second, what Dr. Tollerud said of assuring that you do not 
create a process in which multiple activities end up giving you 
a lesser quality product and one in which different groups of 
veterans, depending on the exposure and the committee, might 
have different levels of consideration. So, if we could do it 
faster, we certainly would and would not hesitate to ask for 
the resources to do it.
    I want to assure you that we spent a great deal of time 
internally trying to figure out if there was a way to create 
parallel committees and not diminish the authority of the work 
that we provide.
    Dr. Tollerud. Could I.
    Mr. Shays. Sure.
    Dr. Tollerud. I need to follow that up. I am glad you 
jumped in front of me. I do consulting for industry. I do 
consulting for the city of Philadelphia in dealing with some of 
their environmental concerns. I know how consultants work. 
There is no question in my mind that VA could find a consultant 
to get this done in half the time that is even asked for in the 
law and to come up with a document that gave all of the looks 
of integrity.
    You could not pay me enough to be on this committee, if it 
were a matter of resources. I have been at this for 8 years 
because it is the Institute of Medicine. There are very, very 
few other organizations that I would put this level of effort 
into. I belong to a dozen or so professional organizations. I 
do not give any of them any comparison level of time that got 
me to the first committee.
    Mr. Shays. How does that relate to my question?
    Dr. Tollerud. Because the whole key to why this takes time 
is that the scientific process of those of us who participate 
is the limiting factor. It is not staff. It is not anything you 
can buy with more money. The fact of the matter is I have been 
a part of the selection process of choosing or at least 
recommending colleagues of mine to be on the second committee 
and the third committee for Agent Orange. There are not very 
many of us out there.
    Mr. Shays. None of this is intended to be disrespectful or 
to anything other than to just try to understand this, but why 
do you have to be the only person?
    Mr. Tollerud. I do not, but the pool of people who fulfill 
the particular criteria that the IOM have taken with respect to 
veterans studies, which is a different set of criteria than for 
some of the IOM studies I believe. It is one that eliminates 
the vast majority of potential candidates for participation.
    Mr. Shays. I respect your organization, Ms. Stoiber, more 
than you can imagine. So, I kind of give deference to it, 
especially since I do not have the expertise and since I would 
be a generalist in this issue. I have this analogy. I can 
understand that if I plant a seed, then I cannot mandate by law 
that this grows into a beautiful plant in 1 month when it is 
going to take 3 months. I can wonder why we do not plant more 
seeds.
    If I have a sense that we are going to do five and then we 
are going to wait until that plant grows, then we are going to 
study it, and then we are going to plant another seed and wait 
until that plant grows and then we are going to study it, you 
know, way off in the distance we are going to be able to 
collect all of this information, and that is what I am 
wondering. Why can't we plant more seeds?
    Let me say this to you. Whether you recommend it or not, I 
am talking about the cannot. I am talking about that first. I 
want to understand if it is resources, if it is that there are 
only a few good men and women to do this study, and I do not 
mean that sarcastically.
    I sounded that way, but I do not. I truly do not; whether 
there truly are only a few good people to do it. I want to 
understand that. Then I am going to have a better sense of the 
timeline.
    Ms. Stoiber. It truly is not a question of resources that 
are money dependent. It is a question of whether or not we can 
first of all conduct the study in a way that meets your 
expectations and our expectations for the accuracy and the 
conclusiveness of the answers that we give you.
    I assure you that the IOM would be very willing to speed up 
this process if we believed there were a way to do it without 
compromising the final report. Based on the strong need of the 
veterans community to have answers to this, and the interest of 
the Congress and speeding up those answers, we can certainly 
revisit the question with our committee at the conclusion of 
phase I in which we have worked through the first exposures. We 
will then have a level of experience in whether or not there is 
any feasible way to expand the committee, operate with sub-
panels, or in any other way get the process moving faster.
    I assure you that until the conclusion of phase I, it is 
not possible to even have that conversation, but that we would 
have not the slightest hesitation in coming back to you and 
coming back to the VA and saying that we could cut this by 
months or longer if we were able to accelerate phase II. At 
this stage, I do not want to hold out the possibility that we 
could do that because we have consulted extensively and do not 
think that is possible.
    Mr. Shays. Phase I will be done when?
    Ms. Stoiber. Phase I is August of the year 2000.
    Mr. Shays. We required it to be done when?
    Ms. Stoiber. April 2000, but you required that the entire 
set of exposures be done by April 2000. We are delivering a 
sub-set of exposures by August 2000.
    Mr. Shays. Have up to five, give or take?
    Ms. Stoiber. Seven, I am sorry. I misspoke.
    Mr. Shays. Let me just say this to you. I am not convinced 
about this one part. I am not convinced of that, and I could be 
just totally off base, but I will tell you. My mind says that 
you can do more than or maybe I do not understand this. Does 
the same group of people have to do each one of these phases in 
order for there to have this common knowledge or can different 
people do each one of the toxins? You could have a group of 
toxins here and toxins here?
    Ms. Stoiber. Let me let my more scientifically qualified 
colleagues answer that.
    Ms. Stratton. I think it is a little bit of both. The 
answer is a little bit of both. Basically, the committees tend 
to break into working groups who have primary responsibility 
for specific compounds or health outcomes. That is most likely 
the way that this Persian Gulf Committee will choose to 
operate. We believe that they will.
    They will firm that up next week when they have their 
committee meeting. That does not mean that they do not need to 
spend a great deal of time together explaining to each other 
what the primaries for that particular compound have read, have 
studied, and the questions. They need to be able to test each 
other back and forth and make sure that everyone is in the 
agreement and the full breadth of the scientific questions have 
been evaluated.
    So, they are in small groups. There is a great deal of time 
spent as a whole sharing the information back and forth. This 
is the consistency and consensus requirement that Dr. Tollerud 
referred to that, by experience with veterans and Agent Orange, 
we understand to be critical to the quality of the work that we 
have done.
    Mr. Shays. Let me allow other Members to ask some 
questions. I will just say, Ms. Schakowsky, your question 
really generates an answer that I am not, well I guess I will 
ask you to come back to the subcommittee and just let us know 
what truly is a financial restraint and what is a resource 
restraint. In other words, there are only so many people that 
you can turn to.
    If in the end a good faith effort to live by the statute, 
which will not be abided by, by the letter it seems fairly 
clear by the statements here, but the spirit could be respected 
even more. I would love to know if this committee of 18 can be 
expanded a bit; if you can be looking at more toxins at the 
same time by allowing others to be involved in this process and 
still be able to tie it together in a package.
    I am going to just conclude at the end, when my colleagues 
are done, to go through the timeline with you just a little 
bit. Maybe you could start to look at it now and tell me which 
ones tend to be the biggest hurdles. That would be very helpful 
to me. Mr. Sanders.
    Mr. Sanders. Thank you and my apologies to everybody. I had 
to run out to another hearing. Let me concur with the 
chairman's concerns. I hope I am not repeating and if I am, 
please stop me. I do not want to go over the stuff that you may 
have gone over.
    Very briefly, I became involved in this whole issue, not 
only because of concerns with veterans and so forth, but of a 
prior experience. That is people in my District were becoming 
ill because of exposure to certain types of carbons and so 
forth and so on. I became then more involved. I got kind of 
sucked into the whole issue of multiple chemical sensitivity.
    I do not want to speak for the chairman, but I think one of 
the frustrations we have in this whole process is we saw 
veterans who came before us who were very terribly ill and the 
VA was saying we do not know what the cause of the problem is, 
and they do a study, and the study does not show. It proves 
that of everything out there, nothing causes the problem.
    In my own State of Vermont, I had a meeting. We are a small 
State. We did not send a whole lot of folks over to the Gulf. A 
couple of months ago I had a meeting in Burlington, VT. We had 
120 people who were at the meeting who are ill from Gulf war 
illness. Every time we ask the VA what is the cause of the DOD, 
there is no cause. We do not know. Where there is a problem, we 
do not know. We do not know.
    Sometimes I am wondering if they are looking in the right 
direction to start with. The bottom line is I, personally, 
believe in a phenomenon called multiple chemical sensitivity. I 
believe we live in a toxic society. I believe the Gulf war 
theater was an enormously toxic environment combined with 
pyridostigmine bromide, combined with the possibility that some 
of these guys absorbed depleted uranium, combined with the fact 
that nerve gas was out there when we blew up a depot.
    We are looking at a real toxic environment. Now, my concern 
is that there are very honest, decent, intelligent, hard 
working scientists who just do not believe this. They do not 
believe this. I know the AMA is split on this. I have in my 
District guys who when they walk down a supermarket aisle, if 
they are exposed to detergents, they get sick.
    Their wives cannot wear perfume. They have short-term 
memory loss. These are hard working guys who have never 
experienced this phenomenon until they went over to the Gulf. 
So, my concern is and maybe Dr. Tollerud if you could begin 
this discussion, do we have people, and are we going to have 
people looking at this who are sympathetic to the concept who 
believe in the concept of multiple chemical sensitivity, or do 
we have folks that say hey, that is really quackery and fraud 
as some believe and there is nothing there?
    Dr. Tollerud. I cannot give you a direct answer because 
actually I know nothing about the make up of the Gulf war 
committee. I can speak from the makeup of the Agent Orange 
Committees. I would guess since the process is the same that 
the choice of scientists would be similar.
    I do not recall in the committee process ever actually 
having a discussion about multiple chemical sensitivity. I 
think if we had, it would have been set aside right away 
because we relied on what the scientific literature said.
    For somebody to say I am not going to look at that 
scientific article because I do not believe in MCS would be the 
same as saying I am not going to look at that article because I 
do not believe in leukemia, because I do not believe in brain 
cancer, or because I do not believe in diabetes. The fact of 
the matter is that the peer review literature, which is what we 
relied on, and I mean there is the point.
    Mr. Sanders. Who reviews peer review literature? In other 
words, if you do not believe in it, and I have seen this many 
times, I have talked to several hundred physicians who inform 
me that they are treating people who are made ill by carpets. I 
am telling you a fact.
    I can go to other physicians who say that is all nonsense. 
That does not exist. There is no illness made by toxic carpets. 
Who is right and who is wrong? If you have as your peer review 
those people who do not believe it, then you are going to have 
all, and I have seen this. There is a wall between these guys. 
Is that true or is that not true?
    Dr. Tollerud. That is true. There are similar disagreements 
in the scientific community as there is in the therapeutic 
community. What I would say with respect to the peer review 
literature, which is why we in a scientific sense we always go 
back to the peer review literature. That process is one that is 
supposed to not allow for opinion to be an overriding 
consideration.
    In fact, there is a whole appeal process for scientific 
journals. If a scientist believes that their article was 
crossed out of the journal or prevented from coming into the 
journal because of an opinion rather than scientific fact, then 
there is an appeal process.
    Recently, there has actually been much more use of a 
different process where when you submit an article to a 
scientific journal, to a high quality journal, you submit the 
names of several reviewers who you would suggest as the writer 
of the article would have the scientific integrity and opinions 
and knowledge to be able to judge that article.
    By and large, at least one of those people ends up being 
reviewers. The second list that I submit is a list of people 
that I believe are conflicted and have a conflict of interest. 
I do not have to specify what that conflict is. As in any other 
thing, there are scientific people who believe in cold fusion 
and who do not believe in cold fusion.
    If you are going to submit an article to a scientific 
journal, you can list people who you believe have already made 
a stance who are closed-minded. Ultimately, it is the editors 
of the journal and the editorial boards of the journal who make 
that final decision about how exclusionary you can be. That is 
the process we use. We needed to rely on that because 
otherwise, frankly, we would be faced and we were faced in 
testimony, for example, where we would have testimony from 
veterans who were clearly affected by disease and who were 
explaining the exposures and stuff to us.
    Then we would get testimony from somebody else who might 
have been a veteran, who might have been a contractor, who 
might have been a politician who would have given equally 
strong testimony in the other. We did not feel that it was 
possible for us to judge the absolute validity of either of 
them.
    We believe that people were telling us what they thought. 
Ultimately, what we could do as scientists, if we wanted to 
have something that the VA and Congress could use on which to 
base their policy judgment, we simply had to stick by the 
science.
    Mr. Sanders. All that I would say, and I will conclude in a 
moment, is this. There is some good news out there. The good 
news out there is that there are a number of scientists and 
physicians who I think are making some breakthroughs in Gulf 
war illness in terms of understanding the problem and in 
treating the problem.
    There is right now through the Veterans Administration two 
clinical trials for $20 million testing a thesis by Nicholson 
who was here from California. There is another trial based on 
some of the work done at Walter Reed Hospital for disease 
management. That is good news.
    The bad news is that, and I would love to be corrected, as 
of today, I do not think the Veterans Administration or the 
DOD, I think their official position is, yes, there is a 
problem. If you were to say to them what is the cause of the 
problem? We do not know. We have done this study; nothing. We 
have done that study; nothing. Please correct me if I am wrong. 
Dr. Mather, am I right or wrong? What is the cause of Gulf war 
illness?
    Dr. Mather. Gulf war illness, I do not think we know.
    Mr. Sanders. That is the answer we have been getting for 8 
years, after spending many millions of dollars in studies. Now, 
does that mean to say that they have bad scientists, or 
scientists who do not want to help the veterans? That is not 
what we are saying. I think there is a mindset.
    I think what Chris and I, do you remember that; that whole 
week over, and over, and over again? There are people who are 
approaching these problems in a different way. The VA and the 
DOD have been pretty conservative. There are some folks who are 
making breakthroughs out there.
    So, if all that happens after all of this stuff comes back 
that say, well, you know, we know there are 100,000 or 50,000 
people who are hurting, they are in my State. I talk to them 
every day. They are hurting.
    Mr. Shays. Not everyday.
    Mr. Sanders. Not everyday. I talk to them often. They are 
hurting. We are failing them if all we say is, yes, we know you 
have a problem, but after 8 years and tens of millions of 
dollars we do not know the cause. We are not doing a good job. 
I would hope that you, in whatever capacity you approach this 
problem, are more open-minded. Go out to people who you may 
think are eccentric.
    Every time I hear peer review I get a little nauseous 
because it always says to me it is the same old folks saying 
this is a crazy idea. It does not work. We do not know what is 
going on but this is a crazy idea. Are you following what I am 
saying? Does it make any sense to anybody?
    Dr. Tollerud. I think that the process that is so difficult 
in finding participants for the committees and why in fact as 
the problems get more complex and more serious it becomes more 
and more difficult to find qualified scientists who have not 
already taken a stand. That is one of the resource issues we 
are talking about for the reason that popping up several other 
committees is just not feasible.
    What you do not want is to have those people who have 
already made their decisions on the committee. I mean it is 
like a jury process where they have already made up their mind 
before they are on the committee.
    The whole intent of gathering the scientists the way the 
IOM is doing it is to have people whom in fact have not made up 
their mind. In fact, they have not even spent a great deal of 
time thinking about it. Sometimes a fresh look will, you know.
    Students do that all of the time. Students ask the 
damnedest questions because they are not smart enough to keep 
their mouth shut and to not look in a different way. The 
committee members are very much like that. They will say, you 
know, well why? Why? Why? Why? Why?
    Mr. Sanders. The VA has just told us, and please correct me 
if I am wrong, that after 8 years and tens of millions of 
dollars, they do not know the cause of Gulf war illness. I do 
not mean to be critical. I have been critical in the past. I do 
not mean to be critical today. It is not a personal thing.
    I do not think they are going to get it, not because they 
do not want to but for whatever reason. I am asking you to get 
it. That means do not continue doing what has failed in the 
past. Do not come back 5 years from now say, gee, everybody is 
ill. We do not know the cause. Tell us what the cause is.
    Go to people you think are a little bit strange who may not 
be peer reviewed by the folks who do not know the answer. That 
is what I really beg of you because I do talk. We had a 
conference. Chris was not there, but some folks were. In 
Atlanta, veterans are very frustrated. They are angry. They are 
bitter. They do not think they are getting a fair shake. They 
are right. They are not getting a fair shake. So, let us break 
the model. Let us talk to some different people. Thank you Mr. 
Chairman.
    Mr. Shays. We are going to conclude very soon. That is not 
to say, Ms. Schakowsky, feel free to ask any question.
    Ms. Schakowsky. I just have a short comment. I really want 
to thank my colleagues, Congressmen Shays and Sanders, for the 
years of work that you have done on this. I find with my very 
short exposure to this that maybe I understand now why I am not 
a scientist. I am not a patient person. What it sounds like you 
are saying is that this is going to take a long time.
    I think that a part of what is missing in this whole 
process, and I do not feel it so correct me if I am wrong, is a 
sense of urgency about this. Mr. Sanders has been talking about 
the last 8 years. What I do not hear back from this panel is 
that an acknowledgment that, you know what, the fact that these 
committee members are busy people is not a real good answer for 
veterans who are really suffering and looking for an answer.
    That may be part of the reality. I think then maybe we have 
to figure out how to coordinate schedules better, or whatever 
it is going to take, or find more people who are experts. I 
would hope that with all of the work that has been done and the 
legislation that has been passed, and the crying in the 
Districts of the people who are suffering that this will move 
quickly.
    Mr. Sanders. May I, Mr. Chairman?
    Mr. Shays. Sure.
    Mr. Sander. Just let me ask one question. Dr. Murphy, Dr. 
Mather, after 8 or 9 years of this issue do you in fact believe 
that there is such a thing called Gulf war illness? Dr. Murphy, 
do you believe it in your heart?
    Dr. Murphy. I believe that there are veterans who are ill 
and they have multiple different kinds of illnesses. We have 
talked about that before. I do not think that everybody was 
exposed to the same thing. I do not believe that everyone has 
the same symptoms or the same illness. We treat veterans for 
the illness that they have.
    We have 120 research projects going on. There are 
additional requests for proposals out to study this problem. I 
think the IOM Committee that has been setup will help us look 
at the scientific literature and determine from the available 
evidence whether there are associations between the exposures 
and any adverse health outcomes.
    That will help us in making compensation decisions. We also 
have another committee that the IOM will be starting up soon 
that will look at the issue of effective and valid treatment 
models. That is a separate process. So, we have done the best 
we can to try to address this issue as quickly as possible.
    What you need to recognize is that sometimes science does 
not always give us answers as quickly as we would like. 
Sometimes there needs to be a public policy decision about how 
to handle these things.
    Mr. Shays. Let me just say, that is really a good lead in 
though in one sense because that is really why the legislation 
took place. Eventually, the VA has gone to the IOM to do what 
we would have liked them to have done years ago, but that is 
water over the dam as far as I am concerned; somewhat over the 
dam.
    Mr. Epley, I just want to say I think your presence here 
today would have been to address issues dealing with the 
presumption issue. I do not want to open a whole door that we 
go in for a long time.
    I made this assumption and I need to know, we have a 
presumption that a veteran who is ill, who served in the Gulf, 
that their illness will be related to their service and to the 
Gulf, and that they then become eligible for certain 
compensation and benefits depending on their illness and so on. 
Is that a false assumption that I am making?
    Mr. Epley. No, sir. If I understand you correctly it is 
not. If under this law, through this study, or under another 
law where a presumption is legislated that says exposure to a 
toxin creates an association or a presumption that, that 
veteran who subsequently comes down with a disease, if that 
presumption is legislated or if the scientific community comes 
through this study and says there is a significant association, 
we can create the regulatory frame work. We can pay 
compensation benefits under that.
    Mr. Shays. OK. I just want to be a little clearer. It is 
not waiting for the results of this study though. We make a 
presumption now; correct?
    Mr. Epley. Not under the legislative framework we have now. 
We have the undiagnosed illnesses and we do pay veterans under 
that legislation from a couple of years back. If a veteran 
presents himself to us today and says he was in the Persian 
Gulf, in the theater of operations, and he is ill, then based 
on medical examination we determine that symptomatology does 
exist. They cannot diagnose the illness. We will pay 
compensation for that undiagnosed illness. We are.
    Mr. Shays. We are making the assumption, the presumption 
that their illness was service related. I am missing a fine 
point here though that you seem to want to make.
    Mr. Epley. I am not trying to.
    Mr. Shays. No, no, no. Mr. Thompson, do you want to enter 
in here? My sense was that the whole issue of presumption would 
be that a person who was clearly ill would be presumed to have 
had his illness, who served in the Gulf, would be presumed to 
have it be service connected.
    Mr. Thompson. No, sir. Current law requires that VA be able 
to tie a disability to a period of service. Congress, at the 
administration's urging a few years ago, legislated a 
presumption only for undiagnosed illnesses.
    Mr. Shays. Right.
    Mr. Thompson. That is, those illnesses which defy medical 
science's ability to diagnose. Because of the uncertainty, the 
policy was to give the benefit of the doubt with respect to 
claimants.
    Mr. Shays. The issue though relates to NAS making certain 
findings on presumption. I need to have a sense as to--I did 
not think it had to be the final package before that assumption 
or that presumption kicks in. So, maybe I need to be clear as 
to what you all think.
    Mr. Thompson. The law requires that as the reports come 
back from the Institute of Medicine, the Secretary reviews 
those reports and within a specified period, 60 days, make 
determinations based upon the IOM report, as well as any other 
available evidence, as to whether the level of proof rises to 
the levels specified in the law to trigger the administrative 
creation of a presumption by regulation.
    Mr. Epley. Excuse me, sir, may I add to that?
    Mr. Shays. Right.
    Mr. Epley. We have done that under the Agent Orange 
legislation. It is a tight timeframe, but it is something 
administratively we can do.
    Mr. Shays. How tight is this timeframe?
    Mr. Epley. It is 60 days to make the report and then 60 
days to write a regulation.
    Mr. Shays. A report after you have a finding?
    Mr. Epley. Yes, sir.
    Mr. Sanders. Chris, can I jump in and ask a question on 
this issue?
    Mr. Shays. Yes.
    Mr. Sanders. Help me out here. I am a police officer in 
Burlington, VT. I have blinding headaches that affect my 
ability to do work. I served in the Gulf. I believe it is 
associated with service in the Gulf. I walk into the hospital 
and I say I really cannot work right now. I am in trouble.
    What help and what benefits do I get? Is there any other 
category other than Post Traumatic Stress that I can receive 
benefits on? What happens if I do not think it is stress? I do 
not want that on my record. Can I get a benefit? How many of 
those benefits are being given? Who wants to answer that?
    Mr. Epley. Let me attempt to. If you present that way and 
are examined by a physician, if they diagnose you for a 
condition, first of all, and that diagnosis either is within a 
year of your separation from service or if it can be 
demonstrated.
    Mr. Sanders. Can it be demonstrated? I will give you an 
example. I served many years ago.
    Mr. Epley. Right. If it can be demonstrated that there is 
continuity; those symptoms have been in existence since service 
we could provide service connected disability.
    Mr. Sanders. How often do you? I mean, I gave you an 
example. A guy has blinding headaches. It has gotten worse. He 
served over in the Gulf. I mean are you going to say, hey 
fellow, we cannot tell you that this was cause by service in 
the Gulf? We do not know what the cause of it is?
    Mr. Epley. In that instance, if there we are not able to 
diagnose, the physician examined and said yes, we understand 
your symptoms. You have one or more symptoms. We cannot 
diagnose that condition. We acknowledge that you have the 
symptomology and it is disabling to you. That is a situation 
that we would consider for service connection under the 
undiagnosed illness rule.
    Mr. Sanders. How many people are receiving benefits who 
served in the Gulf?
    Mr. Epley. People who served in the Gulf, in the conflict 
itself, within the theater of operations and when the conflict 
was going on, our records show a little over 86,000 veterans 
are receiving benefits. That represents 15 percent of the 
veterans who served in the Gulf war conflict.
    Mr. Sanders. Are these health-related benefits?
    Mr. Epley. Yes, sir; service-connected disability or 
disabilities that they received coincident with service.
    Mr. Sanders. It is 85,000?
    Mr. Epley. A little over that, yes, sir.
    Dr. Murphy. Any Gulf war veteran can receive health care 
from VA if the condition might be related to Gulf war service. 
There does not have to be a proven relationship with their 
service in the Gulf. If they are a Gulf war veteran, meaning 
they served between August 1990 and present day, they can get 
healthcare benefits.
    Mr. Sanders. What you are saying is that 85,000 does not 
necessarily include people that we would consider have Gulf war 
illness.
    Dr. Murphy. No.
    Mr. Epley. That is correct.
    Mr. Sanders. All right.
    Mr. Epley. May I elaborate on that, sir?
    Mr. Shays. Yes, and then I want to claim back my time.
    Mr. Epley. Going back to undiagnosed illness, under that 
rule the number of people that we are paying service connected 
benefits for is 2,800 and a few over that. So, that is a very 
much smaller population.
    Mr. Sanders. Is it fair to assume that under that rule we 
would consider those people to be suffering from Gulf war 
illness; that 2,800?
    Ms. Stoiber. They have a lot of different things.
    Mr. Shays. Dr. Tollerud, what are the toxins? I made a 
gigantic assumption that I am having to come to grips with 
here. What are the toxins that you intend to be in your first 
report?
    Mr. Tollerud. I am not on the Gulf war committee.
    Mr. Shays. I am sorry.
    Mr. Tollerud. I think the IOM could answer that.
    Mr. Shays. Right.
    Ms. Stoiber. Those to be covered in the initial phase are 
nerve agents, including serine and cycleserine; vaccines 
anthrax and botulism. I always stumble on this one, 
pyridostigmine bromide and depleted uranium; uranium and 
depleted uranium.
    Mr. Shays. When do we anticipate a finding will be made on 
those?
    Ms. Stoiber. That is August of the year 2000. As I 
understand it then the VA would act on those findings within 60 
days of that period. So, for these seven there would not be an 
extension beyond that 60 days after the August report delivery.
    Mr. Shays. Basically, by the presumption we are giving the 
benefit of the doubt to the veteran; that the VA would have to 
prove that the illness was not service related. Now, you are 
shaking your head, Dr. Murphy. I want to be clear. It is all 
right to shake your head. I just want you to straighten me out 
here.
    Dr. Murphy. After the presumption.
    Mr. Shays. You shook your head and I made a comment. Speak 
in the mic and tell me the facts.
    Dr. Murphy. The IOM Committee will produce its reports. 
Based on the scientific evidence that they find, VA will 
establish a process to weigh the evidence in that report and 
makes recommendations to the Secretary about what presumption 
should be created for particular disease entities. People who 
are then diagnosed with those diseases are presumed to have 
disabilities related to Gulf war service and can be 
compensated.
    Mr. Shays. Let me just conclude then by asking is there any 
determination, for instance, the law requires that there be an 
interim report? I would prefer when we are given documents to 
have somebody's name that is attached to them. Are these from 
the VA or IOM? How would I know this is from the IOM?
    Ms. Stoiber. We sent it to your staff with a cover letter.
    Mr. Shays. So, it was a part of a cover letter.
    Ms. Stoiber. Right.
    Mr. Shays. I apologize; my fault. An interim report was 
required. That was not done on April 21 for obvious reasons. 
When will an interim report be provided?
    Ms. Stoiber. We can provide interim report very quickly and 
will be happy to do so. It was not called for in our contract. 
So, we did not, but we will be happy to do it.
    Mr. Shays. This is what I am going to end up then with my 
request. I would like very much for the VA to negotiate a new 
contract attempting to respect the legislation that passed. If 
you feel that the legislation requires something that is not to 
the benefit of the veterans, not feasible, or whatever, just 
tell me that in a paragraph or two. We will have a dialog about 
whether we need to amend the law or we need to somehow close 
our eyes to the law, but I would like that stated.
    I cannot imagine why an interim report would not be 
helpful. I cannot imagine why it cannot be honored. I would 
think that we would go out of our way to honor the law as it is 
passed.
    Dr. Murphy. I think that the IOM, sir, has already 
testified that we have an informal agreement without having to 
go back and amend or renegotiate this contract.
    Mr. Shays. I am just responding to this. I am responding to 
what you have provided us. I do not see an interim report here.
    Ms. Stoiber. What your staff asked us to do is to compare 
what our contract with the VA required versus what the law 
requires. So, there is no implication that we would not try to 
deal with things that are not in the contract, but just that is 
the comparison of fact.
    Certainly, we are happy to provide a progress report, an 
interim report on where we are. In the other areas, the VA 
shortly expects to award the study on treatment models. So, 
even though that is not a part of our original contract, we 
expect to begin that shortly. We did not mean to imply there 
that these were not doable, but just not in the original 
contract.
    Mr. Shays. Finally, just to conclude again, the first 
report is due when?
    Ms. Stoiber. On August 2000. The interim report will 
obviously come quickly. The first stage report is August 2000. 
That will include the seven exposures that I indicated.
    Mr. Shays. What I am coming to grips with is the fact that 
I made a gigantic assumption. That presumption took place now 
either affirmed or not affirmed by the report, which is a 
gigantic flaw in my knowledge of the bill. So, I have to take 
the blame for that one. It is a shocker for me. I cannot 
understand why the VA fought this given that I do not even see 
the cost because we do not make a presumption for so damn long.
    Dr. Murphy. I would disagree with the assumption that VA 
ever tried not to implement this legislation or ``fought'' 
this. We established the process back in 1997.
    Mr. Shays. Then that was done by Congress then. When we 
were voting on this last year, Dr. Murphy. When we were voting 
on this last year, we had tremendous opposition from the VA on 
this bill. That is a fact. Now, I am going to have to find whom 
that one person is, but we cannot hide from the fact that we 
had to fight tooth and nail to get that bill in.
    We were told it was going to cost a horrendous amount of 
money. So, I will establish what my opinion was and yours on 
the record. So, we have, once again, a gigantic disagreement. I 
do not recall your asking that we pass this legislation. I 
recall that the VA was not supportive. Mr. Thompson, you can 
respond. Dr. Mather, you can respond.
    Mr. Thompson. I would be glad to respond. The Department of 
Veterans Affairs never opposed such legislation. In fact, 4 
months before this legislation was enacted, we had an agreement 
with the IOM to get started on the very thing that would create 
the sort of evidence that would allow us----
    Mr. Shays. Is this your testimony that we had presumption; 
that you had anything to deal with presumption? Are you saying 
to us that you began the study with a presumption in it?
    Mr. Thompson. Has IOM began a study?
    Mr. Shays. Right.
    Mr. Thompson. Hoping to get information.
    Mr. Shays. Right.
    Mr. Thompson. With which to create presumptions if the 
evidence dictated that presumptions were needed in order to 
give veterans a fair shake.
    Dr. Murphy. I think I understand how we are not 
communicating. Are you asking if VA wanted legislation to 
establish presumption of exposure? Is that your question?
    Mr. Shays. Yes. That is one of the questions.
    Dr. Murphy. No. VA did not ask for that particular 
provision.
    Mr. Shays. It opposed it. Maybe I am splitting hair here 
but my sense is that you were taking a stand against 
presumption.
    Dr. Murphy. I think perhaps our difficulty in communicating 
is due to our different understanding of ``presumption.'' I 
mean I think when somebody says there is a presumption of an 
association, I would interpret that to mean that anyone who is 
sick today who served in the Gulf war we would presume that, 
that illness is due to their service in the Gulf war.
    I do not think we have any scientific evidence that says 
that everyone who is sick today is ill due to Gulf war service, 
and we are not saying that there are not people who are sick. 
There are people who are sick. There are some people who are 
sick that we do not understand why.
    Mr. Shays. The whole point of presumption was that even if 
50 percent of those who are ill got it from the Gulf war, we 
were willing to cover the other 50 percent who were not, who 
were sick, who did not get it because we could not wait for 
science to catch up to the sickness.
    I am slightly embarrassed and I put it on the record that 
my sense of presumption is different than evidently the law is 
written. I am embarrassed about that. That was my assumption. 
It was very clear to me that we took a lot of heat by my 
colleagues when this passed because the testimony from the 
sources that they were doing on the VA was that this was going 
to cost a phenomenal amount of money.
    I do not see the cost because we are going to be waiting 
for each of these interim reports to happen before we are 
willing to make the presumption. By then, I wonder why we even 
call it presumption?
    So, that is my embarrassment. Fortunately, I am doing it on 
a Thursday afternoon. I do not feel that the VA was at all 
supportive of this legislation. Let me say something. I did not 
intend that we would end this way.
    Mr. Thompson. Let me just say that the pattern for both the 
Senate bill and the House bill was the recommendation of the 
Presidential Advisory Committee on Gulf War Illnesses. Based 
upon their recommendation, the Department first drafted the 
prototype legislation that was then picked up by advocates in 
both the House and Senate and introduced.
    That is the reason we got bills that do not look very 
different from what the administration first floated and which 
were enacted almost simultaneously the same day. So, I can say 
with certainty there was not legislation that would have just 
proposed that any illness suffered by a Persian Gulf veteran 
would be presumed to be service connected. The Department 
certainly therefore was not on record as opposing anything like 
that.
    Mr. Shays. Any other comments? I will be happy to hear from 
any of you before we conclude.
    Ms. Stoiber. I would just like to say on behalf of the IOIM 
that although this has been a calm discussion, it should not 
reflect any lack of commitment and real energy on our part to 
respond to what we do understand to be urgent needs and 
problems on behalf of veterans.
    Our committee members and our staff have been working as 
rapidly as they could on this, including having a large amount 
of time for our committees actually devoted to hearing directly 
from the veterans and their representatives for exactly the 
reasons Mr. Sanders suggested. That is, you need to hear 
directly and not filtered through research what people are 
experiencing and their perspectives on it.
    Please know that our commitment is to do this as quickly as 
we can possibly do it and maintain the integrity of the work. 
We will go back and reexamine whether or not there is any 
speeding up that can occur. We will discuss it with our 
committee when they meet next week or the week after next. If 
there is, then we will certainly do it.
    Mr. Shays. Thank you. Anyone else?
    [No response.]
    Mr. Shays. OK. I will let the record note that the VA feels 
that they were very supportive of this legislation and that was 
not my understanding, but I respect the fact the VA feels that 
way.
    Thank you. This hearing is adjourned.
    [Whereupon, at 4:15 p.m., the committee was adjourned.]

                                   - 

</pre></body></html>
